HHS/OIG, Audit - Results of Review of Costs Claimed by Us Helping Us, People Into Living, Incorporated, Washington, D.C.,"(A-03-02-00373)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Results of Review of Costs Claimed by Us Helping Us, People Into Living, Incorporated, Washington, D.C.," (A-03-02-00373)
December 4, 2003
Complete
Text of Report is available in PDF format (629 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that Us Helping Us (UHU) needs to improve its financial management system to ensure grant
expenses are properly documented and grant funds are used for the intended purpose.  We found that UHU allocated personnel
costs to Federal grants based on budget estimates because it had not developed a system for allocating salaries and wages
to grants based on personnel activity reports for each employee, as required by Federal regulations.  As a result,
UHU had no assurance that salaries and wages allocated to Federal grants were based on employees actual level of effort.  We
questioned $19,319 in non-salary expenses that were charged directly to the grants because UHU did not follow the terms
and conditions of the grants and the federal cost principles outlined in Office of Management and Budget Circular A-122.  We
also questioned $17,439 for expenses that were charged to grants, but the funds were never paid to vendors.  Finally,
UHU failed to provide sufficient documentation to support $8,800 in non-salary expenses charged to the grants.  In
addition to financial adjustments, we recommended improvements to procedures and internal controls to correct noted weaknesses.